IN THE SUPREME COURT OF THE UNITED STATES

COOKES, WILLIE LEE
Petitioner
vs.

No:

19-0272

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
September 06, 2019
cc:
CLAYTON R. TARTT
BOLES HOLMES PARKMAN WHITE,
LLC
1929 3RD AVENUE N.
SUITE 700
BIRMINGHAM, AL 35203
MICHAEL B. KIMBERLY
MCDERMOTT WILL & EMERY LLP
500 NORTH CAPITOL STREET, NW
WASHINGTON, DC 20001

